GR-90-98-014
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
Service, Training, Officers, and Prosecution 
Formula Grant to the Inter-Tribal Council of Nevada, Inc.
Grant No 96-WI-NX-0040
GR-90-98-014
MARCH 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of a grant
number 96-WI-NX-0040, awarded by the U.S. Department of Justice (DOJ), Office of Justice
Programs to the Inter-Tribal Council of Nevada (ITCN). The ITCN received a grant of
$83,996 to conduct a needs assessment of domestic violence services available to the
members of the 25 Nevada Indian tribes and to provide community education and services.
The grant project period was September 30, 1996 through September 30, 1998. The purpose of
the STOP (Services, Training, Officers and Prosecution) formula grants program is to
combat violence against women.
Our audit concentrated on, but was not limited to, the period September 30, 1996
through September 30, 1998. We tested the accuracy and reliability of the ITCN's
accounting system, reviewed the general ledger, and evaluated the allowability,
allocability and reasonableness of costs.
For purposes of review, we used the Office of Management and Budget (OMB) Circular
A-110, Grants and Agreements with Institutions of Higher Education and Other Nonprofit
Institutions; OMB Circular A-122, Cost Principles for Nonprofit Organizations,
the OJP Financial Guide for the administration of grants, and OJP Guideline Manual
M7100.1D, Financial and Administrative Guide for Grants.
In brief, our audit determined that the ITCN violated the following grant conditions:


- The ITCN charged unallowable costs which totalled $27,633 to the STOP formula grant.
    The unallowable costs are due to requests for reimbursement by a subgrantee based on a
    daily rate which exceeded the maximum rate allowed ($14,996), and the failure to meet the
    matching funds requirement ($12,637).
- The ITCN did not submit progress reports for the STOP grant as required. Financial
    Status Reports were submitted as required, but were not timely submitted for two periods.
- The ITCN did not monitor the subgrantee as required.


 
#####